ttachment # 4

CERTIFICATE OF SERVICE
I, Nina Shahin, CPA, certify that per Rule 29.3 of the Rules of the Supreme
Court of the United States three originals of the Petitioner’s Petition for
Extraordinary Writ filed under Rule 20 will be delivered personally on May 15,
2020 (if the Delaware State Courts are opened by then) to the following addresses of
the attorneys representing the Respondent in this case and the Respondents-Judges
as follows:
WHITEFORD TAYLOR & PRESTON
The Renaissance Center
405 North King St., Suite 500
Wilmington, DE 19801
Scott Wilcox,
Attorney representing Officer D. Boney
US Court for the District of Delaware
Caleb Boggs Federal Bldg.
844 N. King St.,
Wilmington, DE 19801
Judge Leonard P. Stark
Delaware Court of Common Pleas in and for Kent County
Kent County Court House
414 Federal Street
Dover, DE 19901
Judge Charles W. Welch, III
One original of the Petition for Extraordinary Writ will be mailed on May 8, 2020
per requirements of the Rule 29.4 to the Solicitor General at the following address:

Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W. Room 5616
Washington, D.C. 20530-0001

Further, Nina Shahin declares under the penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
Executed on this Eighth Day of May, 2020,
For the Petitioner:
NINA SHAHIN, CPA, MAS, MST

NB

In case that the Courts in the State of Delaware are not opened on May 15,
2020, the above mentioned three originals of the Petition for Extraordinary
Writ will be mailed to the Respondents mentioned above instead of personal
delivery. Type of mailing will depend on the weight of the package but, most
probably, be either by priority or certified mail.

2

